No. 19-432
INTHE

$Upreme QJ:ourt of tbe Wntteb $tates
ALL AMERICAN CHECK CASHING, INC., ET AL.,

Petitioners ,
V.

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 12th day of November, 2019, I caused three copies of the Reply Brief for
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Noel J. Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@usdoj.gov

Counsel for Respondent

